DOE/IG-0507




         SPECIAL                   THE DEPARTMENT OF ENERGY'S
                                      IMPLEMENTATION OF THE
         REPORT                     CLINGER-COHEN ACT OF 1996




                                                JUNE 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                        U.S. DEPARTMENT OF ENERGY
                             Washington, DC 20585

                                   June 20, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Special Report on "Department of Energy's
                          Implementation of the Clinger-Cohen Act of 1996"

BACKGROUND

In 1996, Congress passed the Clinger-Cohen Act (Act) to enhance the management and
control of information technology. The Act requires Federal Agencies to appoint a Chief
Information Officer and to employ a performance-and-results-based approach to
managing information technology investments. Congress also has placed significant
emphasis on improving efficiencies by better leveraging information technology
investments across the Government. The effective use of such resources holds the
promise of significant advances in efficiency and reduced cost of operations. In Fiscal
Year 2001, the Department estimated that it would expend about $1.4 billion for
information technology investments, a significant portion of which supports advanced
and scientific supercomputing initiatives. Under these circumstances, it is essential that
the Department develop and implement an effective information technology
management, investment and control process.

As pointed out in our Special Report on Management Challenges at the Department
of Energy (DOE/OIG-0491, November 2000), information technology management
is one of the most serious challenges facing the Department. This report outlined
recently reported information technology management problems that will require
significant, focused effort to correct. The Office of Management and Budget
recognized that widespread problems exist in this highly visible area and has
established the requirement to improve capital planning and investment controls as
a government-wide priority management objective for Fiscal Year 2001.

The purpose of this report is to highlight problems that have been identified and reported
over time with the Department's implementation of Clinger-Cohen requirements. The
report is based on a recap of major information technology related audit reports and a
review of the Department's implementation initiatives.

OBSERVATIONS

While the Department has taken action to address certain information technology related
management problems, it has not been completely successful in implementing the
requirements of the Clinger-Cohen Act. Since the Act was passed, the Office of
                                             2


Inspector General has issued 13 information technology related reports that identified
problems associated with meeting requirements of the Act. Cumulatively,
these reports demonstrate systemic problems with the Department's approach to
information technology management and its method of addressing requirements of the
Act. Specifically, the Department has not satisfied major requirements of the Act to:

       •   Develop and implement an integrated, enterprise-wide, information
           technology architecture;
       •   Closely monitor policy implementation efforts; and,
       •   Acquire information technology related assets in an effective and efficient
           manner.

Factors such as a decentralized approach to information technology management, the
organizational placement of the Chief Information Officer, and the lack of an information
technology baseline may have contributed to these problems and impacted the
Department's ability to satisfy Clinger-Cohen requirements. As pointed out in our
reports, potential operational efficiencies and savings totaling more than $100 million
were possible through better implementation of Clinger-Cohen requirements.

OPPORTUNITIES FOR IMPROVEMENT

The Department has initiated action on many of the recommendations contained in our
past reports. In response to our reports and several management initiatives, the
Department has taken a number of actions designed to improve the overall management
of information technology resources. These actions include initiatives to improve
computer security, to broaden the coverage of the information technology architecture, to
eliminate or reduce the development of duplicative systems, and a plan for modernizing
Departmental systems. While these actions have resulted in a number of improvements
in information security and have great promise, opportunities for additional
improvements exist. Efforts to satisfy the myriad actions mandated by Clinger-Cohen are
not likely to be fully successful without organizational changes and improvements in the
design and implementation of focused, information technology specific performance
measures.

MANAGEMENT REACTION

Our report contains recommendations designed to improve Clinger-Cohen Act
implementation. While Management concurred with recommendations 3 & 4 and
proposed certain corrective actions, it did not concur with our primary recommendations
1 & 2 to realign the Office of the Chief Information Officer and provide the office with
greater authority. Management expressed the view that the current organizational
placement does not diminish the Department's ability to successfully implement the Act.

It is the position of the Office of Inspector General, however, that Clinger-Cohen is clear
as to the required organizational alignment of the Chief Information Officer. This
requirement, and the overall authority and responsibility envisioned in the Act for the
                                           3


Chief Information Officer, are essential elements in Clinger-Cohen's overarching
objective of bringing structure, sound information technology capital investment decision
making, and an economic and efficient operating strategy to Federal agencies. While we
recognize that the Department of Energy may have some unique organizational
characteristics which need to be addressed, we believe the Department's $1.4 billion
annual information technology operations would benefit from a Chief Information
Officer structure which is consistent with the terms of the Act.


Attachment

cc: Deputy Secretary
    Under Secretary
    Administrator, National Nuclear Security Administration
THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF THE
CLINGER-COHEN ACT OF 1996

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Clinger-Cohen Implementation Needs Improvement

               Details of Finding.......................................................................3

               Recommendations ..................................................................10


               Appendix I

               Scope and Methodology...........................................................13

               Appendix II

               Management Comments ..........................................................14
OVERVIEW

INTRODUCTION AND   The integration of Information Technology (IT) into all aspects of the
OBJECTIVE          Department's management and administration of its various missions
                   continues to increase. Congress has placed significant emphasis on
                   improving efficiencies by better leveraging IT investments across the
                   Government. The effective use of IT holds the promise of significant
                   advances in efficiency and reduced cost of operations. In light of an
                   estimated $1.4 billion annual expenditure for IT, it is essential that the
                   Department develop and implement an effective IT management,
                   investment and control process.

                   To enhance the management and control of IT, Congress passed the
                   Clinger-Cohen Act of 1996 (Clinger-Cohen) requiring Federal
                   Agencies to appoint a Chief Information Officer (CIO) to manage IT
                   investments and to adopt a performance-and-results-based management
                   approach to acquiring, using, and disposing of IT. Clinger-Cohen calls
                   for a capital investment process, performance measures, and the
                   reengineering of business processes before developing or redesigning
                   information systems. Clinger-Cohen specifically requires the CIO to
                   develop and implement programs to ensure that IT related resources are
                   acquired and utilized in an effective and efficient manner, that system
                   performance is closely monitored, and that development and acquisition
                   is based on an integrated, enterprise-wide architecture.

                   The purpose of this report is to highlight problems that have been
                   identified and reported over time with the Department's implementation
                   of Clinger-Cohen requirements. The report is based on a recap of major
                   IT related audit reports and a review of the Department's
                   implementation initiatives.


CONCLUSIONS AND    While the Department has taken action to address certain IT related
OBSERVATIONS       management problems, it has not been completely successful in
                   implementing the requirements of the Clinger-Cohen Act of 1996.
                   Since the Act was passed, the Office of Inspector General (OIG) has
                   issued 13 IT related reports that identified problems associated with
                   meeting requirements of the Act. Cumulatively, these reports
                   demonstrate systemic problems with the Department's approach to IT
                   management and its method of addressing requirements of the Act.
                   Specifically, the Department has not satisfied major requirements of the
                   Act to develop and implement an integrated, enterprise-wide, IT
                   architecture, closely monitor policy implementation efforts, and acquire
                   IT related assets in an effective and efficient manner. Factors such as a
                   decentralized approach to IT management, the organizational placement
                   of the CIO, and the lack of an IT baseline may have contributed to these

Page 1                                                        Introduction and Objective/
                                                           Conclusions and Observations
         problems and impacted the Department's ability to satisfy Clinger-
         Cohen requirements. As pointed out in our reports, potential
         operational efficiencies and savings totaling more than $100 million
         were possible through better implementation of Clinger-Cohen
         requirements.



                                                      (Signed)
                                              Office of Inspector General




Page 2                                         Conclusions and Observations
CLINGER-COHEN IMPLEMENTATION NEEDS IMPROVEMENT

Implementation Efforts   Despite several management initiatives, the Department's
Have Not Achieved        implementation of the Clinger-Cohen Act of 1996 had not achieved
Expected Results         expected results. Since passage of the Act, the OIG has issued 13 IT
                         related reports that identified problems associated with meeting
                         requirements of the Act. Cumulatively, our reports demonstrate
                         systemic problems with the Department's approach to IT management
                         and its method of addressing requirements of the Act. Specifically, the
                         Department had not fully developed and implemented an integrated,
                         enterprise-wide IT architecture, closely monitored policy
                         implementation efforts, and acquired or developed IT related assets in
                         an effective and efficient manner.

                                   Implementation of an Enterprise-wide Architecture

                         Despite many years of effort and significant expenditures, the
                         Department has yet to deploy an integrated, enterprise-wide IT
                         architecture. Analysis of the following reports demonstrates the
                         Department's lack of progress in this important area.

                            •   In August 1998, our Review of the U.S. Department of Energy's
                                Information Management Systems (DOE/IG-0423), disclosed
                                that the Department had made limited progress toward
                                developing and implementing an integrated, enterprise-wide IT
                                architecture. The CIO lacked the authority and resources
                                necessary to ensure development of information architectures at
                                the program office level which form the building blocks of a
                                Departmental architecture.

                            •   In September 2000, our audit of Corporate and Stand-Alone
                                Information Systems Development (DOE/IG-0485), reported that
                                the Department's effort to develop and implement an integrated,
                                enterprise-wide information architecture was largely ineffective.
                                Despite a projected cost of about $220 million, the architecture
                                was to address only about 10 percent of the annual $1.4 billion
                                IT investment.

                          Close Monitoring and Management of All IT Resources and Programs

                         The Department did not closely monitor Clinger-Cohen implementation
                         initiatives. The lack of implementation monitoring and oversight is
                         manifested by problems in information systems security, cyber related
                         infrastructure protection, and systems development. The following
                         reports demonstrate the extent and effect of the problems.



Page 3                                                                       Details of Finding
         •   In February 2000, our report on Unclassified Computer Network
             Security at Selected Field Sites (DOE/IG-0459), showed that the
             Department had not closely monitored or managed unclassified
             computer network security. While each of the six major sites
             audited had developed and implemented certain policies,
             procedures, and physical controls to protect computer systems, a
             comprehensive Department-level network security program was
             not in place. We also noted that specific performance measures
             and objectives related to information security had not been
             established by the Department.

         •   In April 2000, our audit report on the Implementation of
             Integrated Business Information Systems Within the Department
             of Energy (DOE/IG-0466), showed that some Departmental
             contractors were unsuccessful at implementing integrated
             business systems because they did not follow established
             Federal and Departmental guidelines. While the Office of the
             CIO was aware of these development efforts, it was not charged
             with the responsibility and did not proactively monitor them for
             cost, schedule, or viability issues. As a result, the Department
             received no appreciable benefit from the $15.1 million spent on
             unsuccessful implementations.

         •   In September 2000, our report on the audit of Corporate and
             Stand-Alone Information Systems Development (DOE/IG-0485),
             showed that the Department had not closely monitored or
             managed many of the Department's IT programs. The
             Department has delegated development or procurement
             authority for systems costing $50 million or less to field sites
             and thereby excluded virtually all systems from the review or
             concurrence process and from any direct Federal involvement.
             Consistent with the delegation approach, the Department did not
             closely monitor development efforts, maintain a systems
             inventory, or track development costs.

         •   In September 2000, we reported that the Department had not
             adequately managed the Implementation of Presidential
             Decision Directive 63, Critical Infrastructure Protection (DOE/
             IG-0483). Specifically, we observed that the Department had
             not implemented its critical infrastructure protection plan to
             mitigate cyber-related vulnerabilities, or assure the continuity
             and viability of its cyber-related critical infrastructure. The
             Department's lack of progress in this area increased the risk of
             malicious damage to its cyber-related critical infrastructure and
             could adversely impact its ability to protect assets and deliver
             essential services.
Page 4                                                    Details of Finding
            •   In February 2001, our report on Internet Privacy (DOE/IG-
                0493), disclosed that the Department had not monitored or
                controlled the development of internet sites across the complex.
                Specifically, the Department had not provided clear and current
                guidance for implementing Federal privacy requirements, and
                did not provide consistent oversight of web site development
                and operation.

             • In February 2001, the Audit of the Department's Consolidated
               Financial Statements (DOE/IG-FS-01-01), disclosed that
               weaknesses regarding the establishment and maintenance of
               security over unclassified information systems, including
               financial systems, continued to exist. Specifically, the report
               identified sites with problems involving network security
               weaknesses. These weaknesses and vulnerabilities increased
               the risk that malicious destruction or alteration of data or the
               processing of unauthorized financial transactions could occur
               and not be detected in a timely manner.

                 Acquisition and Development of Information Systems

         As demonstrated by our previous audits, the Department did not always
         acquire, develop or use IT resources effectively and efficiently. These
         problems span a number of years and have been observed at virtually
         all Departmental levels. Because of its decentralized approach to IT
         management, the Department has been unable to constrain duplicative
         information systems development and effectively deploy corporate-
         level systems. The following reports demonstrate the costly effect of
         unconstrained acquisition and development.

            •   In April 1997, our report on the Audit of the Management of the
                Department of Energy's Leased Administrative Facilities (DOE/
                IG-0402), showed that although the Department spent $1.8
                million on a corporate database to track Departmental leased
                space, the Facilities Information Management System, none of
                the sites audited were using it. Furthermore, our follow-on
                report, the audit of the Facilities Information Management
                System (DOE/IG-0468), issued in April 2000, concluded that
                after more than 4 years of implementation as many as 20
                Departmental sites used existing in-house systems and not the
                corporate Facilities Information Management System.




Page 5                                                       Details of Finding
         •   In August 1997, our report on the Audit of Controls over the
             ADP Support Services Contract (CR-B-97-04), pointed out that
             Headquarters program offices did not effectively manage the
             Automated Data Processing (ADP) support services contacts by
             fully evaluating and controlling costs for task assignments. The
             report indicated that, by better controlling the costs of task
             assignments through the use of standard industry benchmarks,
             the Department could reduce the cost of ADP support services
             by $2 million annually.

         •   In January 1999, our audit report on the U.S. Department of
             Energy's Procurement and Assistance Data System (DOE/IG-
             0436), indicated that the system did not meet users' needs or
             comply with current generally accepted systems development
             practices. Although the procurement and assistance data system
             was designed to be the Department's corporate system, 73 other
             systems within the Department were used to prepare, execute,
             and monitor contracts, purchase orders, grants, and other
             awards.

         •   In March 2000, we reported in the audit of the Department's
             Commercial-off-the-Shelf Software Acquisition Framework
             (DOE/IG-0463), that the Department had not developed and
             implemented software standards or effectively used enterprise-
             wide contracts, key components of commercial-off-the-shelf
             software acquisition framework. The Department could have
             saved about $38 million over five years had it negotiated an
             enterprise-wide software contract for just one of its major
             desktop software suites.

         •   In September 2000, our report on the audit of Corporate and
             Stand-Alone Information System Development (DOE/IG-0485),
             demonstrated that duplicative and/or redundant information
             systems exist or were under development at virtually all
             organizational levels within the Department. Despite efforts to
             implement several corporate level applications, many
             organizations continued to invest in custom or site-specific
             development efforts that duplicate corporate functionality. The
             lack of a fully developed and implemented application software
             investment strategy resulted in the Department spending at least
             $38 million on duplicative information systems.




Page 6                                                    Details of Finding
                       •   In February 2001, we reported in the audit of The U.S.
                           Department of Energy's Corporate Human Resource
                           Information System (DOE/IG-0494), that the Department had
                           not adequately managed the acquisition and development of its
                           Departmentwide human resource system. Specifically, the
                           Department did not adhere to project planning and best
                           practices for system development projects. As a consequence,
                           full implementation was delayed six years, the cost of the
                           system was 155 percent greater than originally estimated, and
                           the estimated savings of approximately $9.6 million associated
                           with implementing the system will not be achieved.


Clinger-Cohen Act   The Clinger-Cohen Act of 1996 required executive agencies to
of 1996             establish the position of CIO with the intent of improving the
                    management of IT throughout the Federal government. The major
                    expectations set forth in Clinger-Cohen include the efficient and
                    effective acquisition and use of all IT resources, the close monitoring of
                    the performance of all IT programs, and the establishment of an
                    integrated, enterprise-wide IT architecture to guide an agency's IT
                    investments. Clinger-Cohen envisioned that the agency CIO would be
                    held accountable for implementing and managing programs that would
                    help achieve these expectations, thereby enhancing IT management and
                    control. Clearly, the intent of Clinger-Cohen was to have the CIO
                    actively involved in the management of all Departmental IT programs.


Factors Affecting   The Department's organizational approach to IT management has
Implementation      impacted its ability to effectively implement Clinger-Cohen
                    requirements. The Department's decentralized approach to IT
                    management and oversight and the organizational placement of the CIO
                    may have contributed to problems summarized in this report.
                    Additionally, the lack of a baseline or benchmark that provides the
                    Department with a comprehensive view of its IT position has also
                    hindered satisfaction of Clinger-Cohen requirements.

                                   Decentralized Management and Oversight

                    The Department's decentralized approach to IT management and
                    oversight does not provide the CIO with the tools necessary to closely
                    monitor Clinger-Cohen implementation initiatives. Except for certain
                    corporate-level information systems, IT policy implementation and
                    monitoring responsibility is vested in the Lead Program Secretarial
                    Officers. While it is clear that program officials should be directly


Page 7                                                                   Details of Finding
         responsible for policy implementation, the Act requires that the
         Department establish a mechanism that will permit the CIO to "closely
         monitor" implementation activities. As presently structured, the CIO
         lacks the oversight authority necessary to ensure that policy
         implementation is consistent across the complex and is designed to
         satisfy corporate objectives. Review and approval authority for
         virtually all systems development activity is delegated to operating units
         and the CIO performs only limited reviews of Clinger-Cohen
         implementation activities. As a consequence, various program elements
         and sites developed IT implementation approaches that were
         inconsistent, overly costly, and often less than completely effective.

                                Organizational Placement

         Changes in the organizational placement of the CIO and the creation of
         CIO positions within each of the Lead Program Secretarial Offices may
         have also diminished the Department's ability to satisfy Clinger-Cohen
         requirements. These changes resulted in the Department's realignment
         of the CIO's organization, placing it under the operational control of the
         Office of Security and Emergency Operations. Such action, while well-
         intentioned in the wake of numerous computer security incidents, may
         have decreased the CIO's ability to monitor IT investment activity. As
         pointed out by the U.S. General Accounting Office (GAO) in its
         publication on Maximizing the Success of Chief Information Officers,
         (GAO-01-376G, February 2001) such practices do not position the CIO
         for success and are based on an ineffective and outdated management
         model. GAO also emphasizes Clinger-Cohen requirements that CIOs
         occupy executive-level positions, report directly to the agency head, and
         have primary responsibility for information management. It is unclear
         what effect the appointment of CIOs at the program level will have on
         implementation, but this action may serve to further detract from the
         ability of the Department's CIO to satisfy Clinger-Cohen requirements.

                            Information Technology Baseline

         Another factor hindering the ability of the Department to effectively
         manage its IT program was the lack of complete knowledge regarding
         its IT program. Although the General Accounting Office pointed out a
         need for an applications and major systems inventory in its 1996 report
         Information Management: Energy Lacks Data to Support Its
         Information System Streamlining Effort (GAO/AIMD-96-70, July 1996)
         the Department has yet to implement the recommendation. Currently,
         the Department does not have an information baseline, an inventory of
         applications and major systems in use or under development within the


Page 8                                                         Details of Finding
                    Department. Application inventories are simple tools that can greatly
                    facilitate the process of IT governance. They are an essential part of the
                    first governance component, defining the overall infrastructure, a
                    requirement of the Clinger-Cohen Act, and should help avoid duplicative
                    development efforts. When performed across the entire organization, the
                    opportunities for sharing of data, cost savings and operational
                    streamlining increase exponentially.


Opportunities for   While the Department has taken action on many of the recommendations
Improvement         contained in our past reports, opportunities for improvement exist.
                    Based on our reports and several management initiatives, the Department
                    has taken a number of actions designed to improve the overall
                    management of IT resources. These actions include a number of
                    initiatives to improve computer security, to broaden the coverage of the
                    IT architecture, to eliminate or reduce the development of duplicative
                    systems, and a plan for modernizing Departmental systems. While these
                    actions have great promise, they may not be fully successful unless the
                    Department's CIO is given the authority to ensure that they are fully and
                    consistently implemented.

                    In addition to the changes in the organizational alignment, improvements
                    in developing and implementing focused, Clinger-Cohen specific
                    performance measures are essential for success in this challenging area.
                    As noted in many of the audits detailed in this special report, the
                    Department had not developed and implemented specific performance
                    measures to focus its Clinger-Cohen related implementation activities.
                    Such measures, required by the Government Performance and Results
                    Act (GPRA) of 1993, should address specific implementation goals and
                    must be outcome oriented. Improvements or refinements of existing
                    performance measures should provide the Department with an objective
                    means of measuring performance and effectiveness of the CIO and
                    responsible program officials in implementing Clinger-Cohen initiatives.

                    Without change, the Department is also not likely to be successful in
                    implementing the requirements of the recently enacted Government
                    Information Security Reform Act (GISRA) of 2001. GISRA
                    reemphasizes Clinger-Cohen responsibilities and requires the Head of
                    each Agency to delegate the authority to develop and implement a
                    Departmentwide information security program to the CIO. Among other
                    things, the GISRA specifically requires that the CIO ensure that "…the
                    agency effectively implements and maintains information security




Page 9                                                                 Details of Finding
                      policies, procedures, and control techniques." In addition, the CIO is
                      also charged with periodically evaluating "…the effectiveness of the
                      agency information security program, including testing control
                      techniques." The CIO is unlikely to be successful in these endeavors
                      without changes in authority and organizational alignment.


RECOMMENDATIONS       To improve Clinger-Cohen implementation efforts and the overall
                      management of the information technology program, we recommend
                      that the Department:

                         1. Satisfy Clinger-Cohen requirements by positioning the CIO in
                            such a manner to ensure that the position has primary
                            responsibility for information management, is a full participant
                            of the Department's executive management team, and reports to
                            the agency head;

                         2. Provide the Office of the CIO with authority to conduct
                            oversight and monitoring activities sufficient to ensure
                            implementation of Clinger-Cohen Act policy initiatives;

                         3. Develop an information technology baseline that includes an
                            inventory of applications and major systems in use or under
                            development within the Department; and,

                         4. Evaluate existing performance measures and goals associated
                            with Clinger-Cohen Act implementation. Prepare specific,
                            focused performance measures, with targets for completion, as
                            required by the GPRA of 1993.


MANAGEMENT REACTION   Our report contains recommendations designed to improve Clinger-
                      Cohen Act implementations at the Department. While Management
                      concurred with recommendations 3 & 4 and proposed certain corrective
                      actions, it did not concur with our primary recommendations 1 & 2 to
                      realign the Office of the CIO and provide the office with oversight
                      authority. Specifically, management provided the following comments.

                      Recommendation 1: Management did not agree because it believes that
                      the current organizational placement and reporting relationship of the
                      Office of the CIO does not diminish the Department's ability to
                      successfully implement objectives of the Clinger-Cohen Act. Under the




Page 10                                                                Recommendations/
                                                                     Management Reaction
                   current organizational alignment, the CIO has the ability to influence
                   information technology related decisions through direct access to the
                   Deputy Secretary/Secretary and by service as the Executive Secretary
                   to the Executive Committee for Information Management.
                   Management believes that instead of realigning the CIO, it is more
                   important to maintain the synergy that resulted from the close linkage
                   of cyber and physical security functions and focus efforts on the
                   systemic problems and barriers to managing its significant IT
                   investment. Several actions, such as the appointment of CIO's at the
                   program level and the formation of a CIO Executive Council, should
                   improve Department-wide implementation of the Clinger-Cohen Act.
                   Management also indicated that it planned to better communicate the
                   CIO's organizational relationship with executive management during
                   the formal response process.

                   Recommendation 2: Management did not agree and indicated that the
                   CIO currently possessed adequate authority to ensure Clinger-Cohen
                   implementation. In addition, management contended that programs and
                   initiatives conducted by the Executive Council for Information
                   Management, the CIO Executive Council, and collaborative efforts
                   between the CIO, Program-level CIOs, and the Office of Independent
                   Oversight provided an effective means by which the CIO monitored
                   Departmental IT investments and programs.

                   Recommendations 3 & 4: Management agreed with the
                   recommendations and proposed corrective actions.

                   Management comments, in their entirety, are included in Appendix II.


AUDITOR COMMENTS   As noted in our report, we are concerned that the Department's past and
                   proposed actions may be insufficient to achieve Clinger-Cohen
                   objectives. The reporting relationship that management depends on in
                   its response is the same or similar to models in place during the periods
                   covered by our reports. While we agree that the Department's overall
                   cyber security posture has improved, we do not understand how
                   realignment of the CIO would jeopardize security. In fact, in light of
                   the increased emphasis on cyber security and the significant
                   responsibilities assigned to the CIO by the GISRA, a formal direct
                   reporting relationship to the Secretary or Deputy Secretary should serve
                   to strengthen security by elevating the stature of the CIO and making
                   him a partner with the official responsible for physical security.



Page 11                                                               Recommendations/
                                                                      Auditor Comments
          While we applaud Departmental initiatives to better manage and control
          IT investments, we continue to believe that the CIO should be a full
          member of the Department's executive management team. Should the
          Department elect to continue the present reporting relationship, we
          believe that several actions should be taken to increase the effectiveness
          of the CIO function. We suggest that, at a minimum, the arrangement
          to provide direct access to the Deputy Secretary/Secretary be
          formalized. As mentioned in management's response, we also believe
          that immediate action should be taken to officially document and
          communicate the CIO's authorities and responsibilities with respect to
          Clinger-Cohen related issues. Such communication should reinforce
          the direct access relationship and clearly indicate that the CIO bears
          primary responsibility for Clinger-Cohen Act policy and oversight.

          As our report points out, fundamental shortcomings in monitoring and
          controlling IT investments, cyber security, and the implementation of a
          Department-wide IT architecture continue to exist. In many instances,
          a contributing factor was either a lack of proactive monitoring or
          compliance with existing IT related policy. While we recognize that
          the Office of Independent Oversight and Performance Assessment
          provides the CIO with an important and useful enforcement mechanism
          in the cyber security area, a similar arrangement is not available in the
          IT investment area. Except for certain corporate-level systems
          development efforts, the CIO has not historically been involved in
          actively monitoring development efforts.

          We concur with management's proposal to strengthen the IT
          management function by fully defining and formalizing the CIO's
          responsibility and authority. To answer concerns in this particular area,
          we believe that the pending order should formalize initial and periodic
          program-level systems development reviews. The revised order should
          also provide the CIO with the authority to review and concur with
          reports of such evaluations. Finally, a process for elevating
          disagreements between the CIO and line organizations should also be
          formalized. With the addition of these attributes, we would consider
          the proposed actions to be responsive to our recommendation.




Page 12                                                       Auditor Comments
APPENDIX I

SCOPE         This audit was conducted at Departmental Headquarters between
              September 2000 and March 2001. We reviewed IT related OIG audit
              reports issued between the inception of the Clinger-Cohen Act in Fiscal
              Year 1996 and February 28, 2001. In addition, we evaluated proposed
              and ongoing Office of the CIO initiatives that have a direct bearing on
              the implementation of Clinger-Cohen.


METHODOLOGY   To satisfy the audit objective, we:

                 •   Reviewed the Clinger-Cohen Act of 1996 and the Investigative
                     Report of Senator Fred Thompson on Federal Agency
                     Compliance with the Clinger-Cohen Act to discern the major
                     expectations;

                 •   Reviewed 13 IT related OIG audit reports evaluating audit
                     findings in terms of their relationship to Clinger-Cohen
                     implementation;

                 •   Reviewed the Department's official response to Senator Fred
                     Thompson's inquiry as to Departmental Clinger-Cohen
                     implementation and supporting documentation; and,

                 •   Held discussions with representatives of the Office of the CIO to
                     obtain details on planned and ongoing IT initiatives that had a
                     direct bearing on Clinger-Cohen implementation.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objectives. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. Also, we did not rely on computer-
              processed data to accomplish our audit objective. An exit conference
              was held with the Office of Security Affairs and Emergency Operations
              and the Office of the CIO on May 2, 2001.




Page 13                                                     Scope and Methodology
APPENDIX II




Page 14       Management Comments
Page 15   Management Comments
Page 16   Management Comments
Page 17   Management Comments
                                                                               IG Report No. :DOE/IG-0507

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
